HOWARD KLEINHENDLER ESQUIRE
369 LEXINGTON AVENUE, 12TH FLOOR
NEW YORK, NEW YORK 10017
(917) 793-1188
howard@kleinhendler.com
www.kleinhendler.com
December 30, 2020
Via ECF Filing
Scott Harris
Clerk
US Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

Timothy King, et al v. Gretchen Whitmer, Governor of Michigan, et al
Case No. 20-815
In re Coreco Ja’Quan Pearson, et al, Petitioners
Case No. 20-816
In re Tyler Bowyer, et al, Petitioners
Case No. 20-858
In re William Feehan, Petitioner
Case No. 20-859

Dear Mr. Harris:
On December 18, 2020, undersigned counsel submitted a Rule 21 motion (the “Motion”)
requesting consolidation and expedited consideration of four related cases, King v. Whitmer (20815) (“The Michigan Case”); In re Pearson (20-816) (“The Georgia Case”); In re Bowyer (20858) (“The Arizona Case” and In re Feehan (20-859) (“The Wisconsin Case”).
Each of the cases was brought by Republican presidential electors (from Michigan,
Georgia, Arizona, and Wisconsin, respectively) who cast votes on December 14, 2020, for
President Trump with the intention of those Trump votes being counted in the Joint Session of
Congress scheduled for January 6, 2021.
The Motion referred to the fact that two of the four cases, In re Bowyer (20-858) and In re
Feehan (20-859), as of the filing of the Motion, had been submitted but not yet deemed filed by
the Court. The Motion requested that these two cases be consolidated with the other two and
jointly considered in expedited fashion.

Page 2 of 2

The Motion was served on counsel in Bower and Feehan, as well as on counsel in King
and Pearson, on December 18, 2020.
As of yesterday, December 29, 2020, Bower and Feehan (like King and Pearson) are
officially on the docket and before the Court; hence, there can be no question that the Motion is
ripe for disposition.
In light of all the above, we respectfully renew our request that King, Pearson Bower, and
Feehan be consolidated and heard in expedited fashion in time for the Court to render a decision
on or before January 5, 2020.
Very truly yours,
/s/ Howard Kleinhendler
cc:

All Counsel of Record

